APPLICATION AND
SOLICITATION
DISCLOSURE

VISA CLASSIC/VISA GOLD/VISA PLATINUM

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Classic

12.90%
Visa Gold

9.90%
Visa Platinum

6.90%
APR for Balance Transfers

Visa Classic
2.90% Introductory APR until December 31, 2020.
After that, your APR will be 12.90% .
Visa Gold
2.90% Introductory APR until December 31, 2020.
After that, your APR will be 9.90% .
Visa Platinum
2.90% Introductory APR until December 31, 2020.

APR for Cash Advances

After that, your APR will be 6.90% .
Visa Classic
12.90%
Visa Gold
9.90%
Visa Platinum
6.90%

Penalty APR and When it Applies

Visa Classic
None
Visa Gold
None
Visa Platinum
None

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03706194-MXC10-C-2-020119 (MXC101-E)

For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
None
1.00% of each transaction in U.S. dollars
Up to $20.00
None
Up to $27.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)."
Promotional Period for Introductory APR:
The Introductory APR for balance transfers will apply to transactions posted to your account until 12/31/2020. Any existing
balances on New Cumberland Federal Credit Union loan or credit card accounts are not eligible for the Introductory APR
for balance transfers.
Loss of Introductory APR:
We may end your Introductory APR for balance transfers and apply the prevailing non-introductory APR if you are 60 days
late in making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 01, 2019
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Classic, Visa Gold and Visa Platinum are secured credit cards. Credit extended
under this credit card account is secured by various personal property and money including, but not limited to:
(a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for this
account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit
Union excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if you are five or more days late in making a
payment.
Returned Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$5.00.
Rush Fee:
$75.00 overnight. $50.00 second day.
Statement Copy Fee:
$1.00 per document.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03706194-MXC10-C-2-020119 (MXC101-E)

